OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
ANTICORRUPTION
ACTIVITIES IN THE
DOMINICAN REPUBLIC
AUDIT REPORT NO. 1-517-09-003-P
DECEMBER 16, 2008




SAN SALVADOR, EL SALVADOR
                         Office of Inspector General




      December 16, 2008

      MEMORANDUM

      TO:                  USAID/Dominican Republic Director, Richard Goughnour

      FROM:                RIG/San Salvador, Timothy E. Cox /s/

      SUBJECT:             Audit of USAID/Dominican Republic’s Anticorruption Activities (Report
                           No. 1-517-09-003-P)

      This memorandum is our report on the subject audit. In finalizing the report, we carefully
      considered your comments on the draft report and we have included the mission’s
      comments in their entirety in Appendix II.

      The report includes seven recommendations for your action. Based on your comments,
      a management decision can be made on Recommendation Nos. 1, 2, 3, 4, 5, and 7
      when USAID/Dominican Republic establishes target dates for completing the planned
      actions. A management decision for Recommendation No. 6 can be made when
      USAID/Dominican Republic develops a plan, with timeframes, for reporting on its
      performance management plan performance indicators in the operating plan results
      report. Determination of final action on the recommendations will be made by the Audit
      Performance and Compliance Division (M/CFO/APC).

      I want to express my appreciation for the cooperation and courtesy extended to my staff
      during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit, 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459                                                      2
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 5

Audit Findings ................................................................................................................. 7

     Did USAID’s anti-corruption activities in the Dominican Republic achieve planned
     results? ....................................................................................................................... 7

          Number of Corruption Cases Processed and Number of Officials
          Prosecuted Has Fallen Short of Expectations………..……….………….......…….…11

           Progress in Passing and Implementing Anti-Corruption
           Legislation Fell Short of Expectations………………..………………………….…..13

           Targets for Numbers of Citizens Trained Were Only
           Partially Achieved……………………………..……….………………………….…..14

           Pilot Project Recommendations Need to Be Implemented……..…………….…..15

           Small Grants Program Was Less Successful Than Expected……………….…...16

           Performance Planning and Reporting Needs to Be Improved……………….…...17

     Have USAID’s anti-corruption activities been coordinated with other U.S.
     Government agencies’ and international donor activities? …………….…..……….. 21

Evaluation of Management Comments ....................................................................... 22

Appendix I – Scope and Methodology ........................................................................ 23

Appendix II – Management Comments ....................................................................... 25
SUMMARY OF RESULTS
On the World Bank governance indicator for control of corruption, the Dominican
Republic’s 2007 score was -0.65 on a scale from -2.5 (worst) to 2.5 (best), with a score
of 0 representing the median for all countries that received a score. The 2007 score
reflected a generally negative trend since 1996, when the country’s score was -0.37
(page 3).

USAID/Dominican Republic’s anticorruption program is designed to increase the
transparency of public administration by strengthening demand for anticorruption reform;
strengthening capacity to prevent, detect, and sanction corrupt behavior; and reducing
corruption in selected pilot institutions. USAID/Dominican Republic spent $4.4 million
under its anticorruption program during the period covered by this audit, from fiscal year
(FY) 2006 through June 30, 2008. That anticorruption program has now ended. The
follow-on program is expected to begin early in calendar year 2009. Under the new
program, activities will focus on anticorruption reforms within government agencies that
are involved in implementing the Dominican Republic-Central American Free Trade
Agreement and civil society monitoring of these reforms. Broader efforts to raise citizen
awareness of corruption will be deemphasized under the new program (page 5).

As part of its FY 2008 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions (page 6).

•   Did USAID’s anticorruption activities in the Dominican Republic achieve planned
    results?

•   Have USAID’s anticorruption activities been coordinated with other U.S. Government
    agencies’ and international donor activities?

With respect to the first question, USAID’s anticorruption activities in the Dominican
Republic did not fully achieve planned results, although there is evidence of progress in
raising citizen awareness of corruption. Two civil society organizations supported by
USAID have influenced the passage of key anticorruption measures through advocacy
efforts and have helped monitor the government’s anticorruption efforts. There is
evidence that a mass media campaign in fall 2007 helped raise citizen awareness of
corruption. Nonetheless, the ability of civil society organizations and the news media to
monitor the government’s efforts has been impaired by incomplete implementation of
legislation providing freedom of access to government information. Key government
institutions have not played the leadership roles envisioned for them, and the number of
corruption cases being pursued through the justice system does not show a clearly
increasing or decreasing trend (page 7).

With respect to the second question, USAID’s anticorruption activities have been
coordinated with those of other U.S. Government agencies and other donors, and
USAID has taken a leadership role in coordination efforts (page 21).




                                                                                        1
The report recommends that USAID/Dominican Republic:

•   Under its new anticorruption strategy, assign responsibility for meeting program
    performance targets to specific entities or partners where appropriate and obtain
    their concurrence that the performance targets are achievable within the strategy
    period (page 13).

•   Follow up to ensure that the corruption case-tracking system has been put into
    use (page 13).

•   Reach agreement with partners on procedures for systematically evaluating the
    effectiveness of training provided (page 15).

•   Follow up to ensure that pilot institutions implement recommended anticorruption
    measures developed through the pilot projects (page 16).

•   Revise the performance management plan to correct the reporting issues
    discussed in this report (page 20).

•   Report on the performance indicators from the performance management plan in
    its next operating plan results report (page 20).

•   Implement controls to provide reasonable assurance that the performance
    management plan and operating plan results report contain complete and
    accurate information. These controls should include assigning responsibility for
    verifying reported information and providing feedback to partners on progress
    reports to specific staff members (page 21).

USAID/Dominican Republic generally agreed with the report recommendations and has
developed specific plans to address most of the recommendations. An evaluation of
management comments is provided on page 22, and USAID/Dominican Republic’s
comments in their entirety are included in appendix II.




                                                                                        2
BACKGROUND
The Dominican Republic has a population of 9.5 million and per capita income of $7,000
(2007 estimate, purchasing power parity basis), and is classified as a developing country
under the Department of State–USAID foreign assistance framework. From 1930 through
1996, authoritarian rule predominated, and regular, competitive presidential elections were
only established in 1996. The amended strategy for USAID/Dominican Republic’s
anticorruption program, dated March 2005, described a number of factors working for and
against democratic consolidation. On the positive side, the country scores well on
governance indicators measuring political rights and participation, and a number of civil
society organizations with strong leadership serve as advocates for democratic reform.
On the negative side, political competition tends to take the form of “clientalism,” in which
people participate in politics and political campaigns with the hope of receiving rewards in
the form of government jobs or other official “favors.” Government institutions are weak,
and government authority is concentrated in the presidency. Finally, government
corruption is endemic and a culture of impunity prevails.

Figure 1 presents the Dominican Republic’s scores on the World Bank governance
indicator for control of corruption. (The World Bank scales these scores so that the
median score for all countries is 0 and essentially all scores fall between 2.5 [best] and -
2.5 [worst].)

Figure 1. World Bank Control of Corruption Indicator, 1996–2007


    0
         1996     1998     2000      2002     2003     2004     2005     2006     2007

  -0.1



  -0.2


  -0.3


  -0.4


  -0.5



  -0.6


  -0.7



USAID/Dominican Republic’s anticorruption program, outlined in figure 2, was designed
to increase the transparency of public administration by strengthening demand for



                                                                                           3
anticorruption reform; strengthening capacity to prevent, detect, and sanction corrupt
behavior; and reducing corruption in selected pilot institutions.

Figure 2. Strategic Framework for USAID/Dominican Republic’s Anticorruption
Program

                                      Strategic Objective 9: More Participatory,
                                     Representative, and Accountable Democracy
                                                      Achieved



                                 Intermediate Result (IR) 9.2: Increased Transparency
                                               of Public Administration

                                - Number of anti-corruption cases received by the
                                Public Ministry, sent to the judiciary, tried, and
                                judgments rendered.
                                - Number of Dominican officials or organizations
                                indicted on corruption charges.
                                - Progress on key laws designed to increase
                                transparency.



                                       Sub-IR 9.2.1: Strengthened Demand for Anti-
                                                    Corruption Reform

                                    - Number of civil society organization actions taken
                                    to promote anti-corruption reforms.



                                     Sub-IR 9.2.2: Strengthened Institutional Capacity
                                      to Prevent, Detect, and Sanction Unethical and
                                                     Corrupt Behavior

                                    - Number of citizens trained in anti-corruption.
                                    - Progress on implementation of initiatives to
                                    prevent, detect, and sanction corrupt activities
                                    proposed by the National Commission.



                                        Sub-IR 9.2.3: Decreased Corruption in Pilot
                                                        Institutions

                                    - Number of administrative mechanisms
                                    established to prevent, detect, and sanction
                                    unethical behavior by public officials in pilot
                                    institutions.
                                    - Reporting by users/clients of decreased
                                    corruption in pilot institutions (survey).
                                    - Increased awareness of costs of corruption by
                                    users/clients of pilot institutions.


Note: IRs 9.1 (More Representative and Effective Electoral and Political Processes) and 9.3 (More Effective and Fair
Criminal Justice System) are omitted from this framework because they are not directly related to the anti-corruption
program.




                                                                                                                        4
USAID/Dominican Republic implemented its anticorruption program mainly through four
contracts and agreements:

•   DPK Consulting provided anticorruption and justice sector assistance under a $9.5
    million contract that was in effect from May 15, 2003, to March 31, 2008. The
    agreement included $2.9 million specifically for anticorruption activities, but these
    activities ended in June 2006. Activities related to the anticorruption program
    included training for prosecutors in money laundering and other financial crimes,
    support for an office of public information in the National Procurement Department, a
    procurement pricing study in eight hospitals in the eastern region, technical
    assistance to institutions of horizontal accountability within the government (e.g., the
    comptroller general, the congress, the national school for judges, and the national
    anticorruption commission), and analysis to support a new public procurement law.

•   A $2.9 million contract task order with Casals and Associates, in effect from June 1,
    2006, through November 30, 2008, provides resources for increasing citizen
    awareness of corruption issues through a mass media campaign; helping to build a
    network of local nongovernmental organizations (NGOs) working against corruption;
    strengthening citizen oversight of government activities; developing media grants to
    facilitate coverage of corruption issues; and strengthening the government’s ability to
    respond to corruption through a tracking system for corruption complaints, training
    for prosecutors and judges, and demonstration projects in the passport and customs
    agencies.

•   Participación Ciudadana, a local NGO, was awarded a $6.5 million cooperative
    agreement that was in effect from December 30, 2002, to June 30, 2008. The
    agreement provided $1.3 million to help Participación Ciudadana track anticorruption
    legislation, pay for media activities to raise citizen awareness of corruption issues,
    publish a transparency index for public institutions, and sponsor workshops and
    seminars.

•   Fundación Institucionalidad y Justicia, a local NGO, implemented a $1.7 million
    cooperative agreement from May 16, 2005, to December 31, 2007. The agreement
    provided $194,410 for anticorruption activities.

In total, USAID/Dominican Republic obligated and spent $4.4 million under its
anticorruption program during the period covered by this audit: fiscal year (FY) 2006
through June 30, 2008.

The current anticorruption program has now ended. The follow-on program is expected
to begin early in calendar year 2009. Under the new program, activities will focus on
anticorruption reforms within government agencies that are involved in implementation of
the Dominican Republic-Central American Free Trade Agreement and civil society
monitoring of these reforms. Broader efforts to raise citizen awareness of corruption will
be deemphasized under the new program.




                                                                                          5
AUDIT OBJECTIVES
As part of its FY 2008 audit plan, the Regional Inspector General/San Salvador
performed an audit of USAID/Dominican Republic’s anticorruption program to answer
the following questions:

   •   Did USAID’s anticorruption activities in the Dominican Republic achieve planned
       results?

   •   Have USAID’s anticorruption activities been coordinated with other U.S.
       Government agencies’ and international donors’ activities?

The audit scope and methodology are described in appendix I.




                                                                                    6
AUDIT FINDINGS
Did USAID’s anticorruption activities in the Dominican Republic
achieve planned results?
USAID’s anticorruption activities in the Dominican Republic did not fully achieve planned
results, although there is evidence of progress in raising citizen awareness of corruption.

USAID/Dominican Republic’s amended strategy for its democracy portfolio, dated March
2005, envisioned a series of events in which—

•   Civil society organizations would advocate for and influence the passage of key
    anticorruption measures. After passage, these groups would monitor implementation.
    Freedom of access to government information would be implemented, and civil society
    organizations and the news media would help monitor government conduct and report
    on abuses.

•   The government would exhibit greater political will to fight corruption, with the
    National Ethics Commission playing a strong role in adopting and implementing
    anticorruption measures while Public Ministry staff would be better trained, resulting
    in a modest increase in corruption cases prosecuted and judgments rendered.

•   For selected pilot government institutions, internal management would become more
    transparent and accountable, and the institutions’ clients would report fewer cases of
    corruption.

The program can take credit for some significant achievements in terms of raising citizen
awareness of corruption, but higher awareness of the issue has not led to greater
political will by the government to tackle corruption or to greater transparency in pilot
government institutions:

•   Civil society organizations supported by USAID—Participación Ciudadana (PC) and
    the Fundación Insititucionalidad y Justicia (FINJUS)—have influenced the passage
    of key anticorruption measures through advocacy efforts and, in some cases, helping
    to draft legislation or commenting on draft legislation. These same organizations
    have helped monitor the progress of anticorruption measures and the progress of
    corruption cases through the Public Ministry and the courts. There is evidence that a
    mass media campaign in fall 2007 helped raise citizen awareness of corruption,
    although the campaign was abruptly halted when USAID and the U.S. Embassy
    became concerned that it could influence the presidential elections in May 2008.
    The ability of civil society organizations and the news media to monitor government
    conduct has been impaired by incomplete implementation of legislation providing
    freedom of access to government information.

•   The government has not demonstrated greater political will to prosecute
    anticorruption cases, and the number of corruption cases being pursued through the
    justice system does not show a clear increasing or decreasing trend. Neither the




                                                                                         7
      Public Ministry nor the National Ethics Commission has played the leadership roles
      envisioned for them.

•     The mission originally expected to implement pilot anticorruption programs in selected
      hospitals in the eastern part of the country and in the energy sector to reduce the
      percentage of electricity lost to theft. Mission officials stated that a pilot project in the
      energy sector was not pursued because of a lack of interest in reforming the energy
      sector, but they could not recall or document why a pilot project in the hospitals was
      not pursued. Instead, the mission and its contractor identified opportunities to work
      with the passport and customs agencies on pilot projects. Through these pilot
      projects, consultants identified corruption risks and made recommendations to mitigate
      them, but the recommendations have not been implemented.

In its performance management plan (PMP), USAID/Dominican Republic established
three performance indicators to measure the overall progress of the program toward
increasing the transparency of public administration. The first two performance
indicators focus on the number of corruption cases processed and the number of
officials prosecuted for corruption. They do not display a clear pattern of either
increased or decreased interest or success in prosecuting corruption cases. 1 The third
indicator focuses on passage and implementation of key laws aimed at increasing the
transparency of government operations. Passage and implementation of a law can
easily take several years in the Dominican Republic, but 8 of the 11 laws reached the
expected stage in fiscal year (FY) 2006 and 6 of 11 laws reached the expected stage in
FY 2007. However, none of the laws reached the implementation stage in the sense
that the term is usually understood. By the end of FY 2007, implementing regulations for
several laws had been drafted, but none of the laws were in operation. Table 1 presents
the performance indicators, targets, and actual results for FYs 2006 and 2007.

Table 1. PMP Performance Indicators for Intermediate Result 9.2, “Increased
Transparency of Public Administration”

        Performance Indicator                   FY 2006                      FY 2007
                                          Planned     Actual           Planned     Actual
    Number of anticorruption cases:
    • Cases received                          30            24             30            153
    • Arraignments                            30             0             40             16
    • Trials                                  10            21             15             6
    • Judgments                                5            21              8             17
    Number of officials or
    organizations indicted for                40            12             45             10
    corruption
    Progress on key laws designed
    to increase transparency:
    • Public contracts and                Approved in     Met –        Enacted by       Met –
                                             first      Enacted by      president     Enacted by

1
     Of course, this conclusion depends on the frame of reference used. According to a
     Participación Ciudadana publication cited by USAID/Dominican Republic (1983–2003: 20
     Años de Impunidad), only 6 of 227 corruption cases were concluded from 1983 to 2003.
     Against this admittedly low standard of comparison, the 21 judgments reached in FY 2006 and
     the 17 judgments reached in FY 2007 look more impressive.


                                                                                                   8
      Performance Indicator                 FY 2006                          FY 2007
                                      Planned     Actual               Planned     Actual
   procurement law                     chamber         president                        president
 • New budget law                    Approved in      Not met –       Implementing
                                                                                          Met –
                                                                                      Implementing
                                        first        Approved in       regulations
                                                                                       regulations
                                      chamber         Nov. 2006         developed
                                                                                        developed
 • Treasury law                                          Met –        Implementing
                                                                                          Met –
                                      Enacted by                                      Implementing
                                                      Enacted by       regulations
                                       president                                       regulations
                                                       president        developed
                                                                                        developed
 • Public credit law                                     Met –        Implementing
                                                                                          Met –
                                      Enacted by                                      Implementing
                                                      Enacted by       regulations
                                       president                                       regulations
                                                       president        developed
                                                                                        developed
 • Asset declaration law             Approved in
                                                     Not met – Bill    Enacted by     Not met – Bill
                                        first
                                                       expired          president       expired
                                      chamber
 • Controller General law                               Not met –     Implementing
                                                                                           Met –
                                      Enacted by                                      Implementing
   allowing public access to audit     president
                                                     Submitted to      regulations
                                                                                       regulations
   reports                                           first chamber      developed
                                                                                        developed
 • Appointment of national            Publication        Met –        Implementing      Not met –
                                      of enacted     Publication of    regulations    Publication of
   ombudsman                              law         enacted law       developed      enacted law
 • Access to public information                          Met –                          Not met –
                                      Enacted by     Implementing     Implementati    Implementing
   (Freedom of Information Act)        president      regulations          on          regulations
                                                       developed                        developed
 • Whistleblower protection           Bill drafted
                                                       Met – Bill      Approved in      Not met –
                                                        drafted       first chamber     Bill drafted
 • Independent department for                                         Submitted to
                                                                        ordinary or
   prevention of corruption               Bill
                                                        Met – Bill        special
                                      submitted                                        Not met –
                                                      submitted to     commission
                                        to first                                       Bill expired
                                                     first chamber          after
                                      chamber
                                                                        approval in
                                                                      first chamber
 • United Nations anticorruption      Publication        Met –        Implementing
                                                                                          Met –
                                                                                      Implementing
   convention                         of enacted     Publication of    regulations
                                                                                       regulations
                                          law         enacted law       developed
                                                                                        developed

Accomplishments and remaining challenges in each of the three major program areas
(increasing demand for anticorruption reform; increasing institutional capacity to prevent,
detect, and sanction unethical and corrupt behavior; and decreasing corruption in pilot
institutions) are discussed in the following sections.

Increasing Demand for Anticorruption Reform – The PMP included one indicator for
this part of the program. As table 2 indicates, the targeted level of performance was
exceeded in FY 2006 and exceeded by a wide margin in FY 2007. However, as
discussed in the finding beginning on page 18, this performance indicator is not very
meaningful because it weights significant, far-reaching actions and routine actions such
as freedom of information requests by civil society organizations equally. As a result,
the number of reported actions does not predictably rise and fall in conjunction with the
level of civil society organization activity.




                                                                                                       9
Table 2. PMP Indicators for Subintermediate Result 9.2.1, “Strengthened Demand
for Anticorruption Reform”

         Performance Indicator                    FY 2006                FY 2007
                                             Planned    Actual      Planned    Actual
 Number of civil society organization
 actions taken to promote anticorruption          50        59           55       204
 reforms

Strengthening Institutional Capacity to Prevent, Detect, and Sanction Unethical
Behavior – For this part of the program, the mission established two targets dealing with
numbers of people trained and progress on initiatives proposed by the National Ethics
Commission. The training targets have not been met, mainly because the overall
program targets were not allocated to specific partners so that they could be
accomplished, and because of a lack of monitoring by the mission (a related finding
begins on page 15). Most of the initiatives proposed by the National Ethics Commission
have not been accomplished or were accomplished by other donors with other sources
of funding. Many initiatives were not accomplished because the National Ethics
Commission did not play the leadership role it was expected to play under the program.

Table 3.     PMP Indicators for Subintermediate Result 9.2.2, “Strengthened
Institutional Capacity to Prevent, Detect, and Sanction Unethical and Corrupt
Behavior”

       Performance Indicator                    FY 2006                 FY 2007
                                           Planned    Actual      Planned     Actual
 Number of citizens trained in
                                            6,040       2,160      6,540        2,995
 anticorruption
 Progress on initiatives proposed by
 the National Ethics Commission:
     Social auditing commissions
     established and internal
                                              3        Not done
     regulations developed and
     validated
     National Ethics Commission
     monitoring and evaluation
     system designed, approved, and           3        Not done
     implemented by trained
     personnel
     Two important social auditing
     experiences conducted and               NA                      3         Not done
     reported
     Public procurement                                                        Done by
     implementing regulations                NA                      3         European
     developed and approved                                                   Commission
     Verification procedures for asset
                                                                               Done by
     disclosure designed and                 NA                      3
                                                                              World Bank
     validated
     Implementation of a pilot access
                                             NA                      3          Done
     to information office



                                                                                        10
          Performance Indicator                      FY 2006                     FY 2007
                                                Planned    Actual          Planned     Actual
       Monitoring by the National Ethics
                                                    NA                         3           Not done
       Commission

Decreasing Corruption in Public Institutions – The amended strategy, dated March
2005, indicated that three performance indicators would be used to measure results
under this part of the program: (1) number of administrative mechanisms established to
prevent, detect, and sanction unethical behavior by public officials in pilot institutions, (2)
reporting by users/clients of decreased corruption in pilot institutions, and (3) increased
awareness of the costs of corruption by users/clients of pilot institutions. However, the
mission inadvertently omitted these performance indicators from the PMP. 2 As
discussed above, USAID found that it was not practical to implement pilot projects in the
entities it originally envisioned. Instead, Casals found two other government entities that
were willing to implement pilot programs: the passport directorate and the customs
directorate. However, the work that was done in these institutions was more limited in
scope than the pilot projects envisioned by the mission’s strategy. Diagnostic studies
and recommendations were made, but by the time the diagnostic studies were finished
there was no time to support implementation of the recommendations before the
contract with Casals ended. (A related finding begins on page 15.)

The following sections provide more information on areas where program performance
fell short of expectations and include recommendations where appropriate.

Number of Corruption Cases Processed
and Number of Officials Prosecuted
Have Fallen Short of Expectations
    Summary: The number of corruption cases and number of officials prosecuted for
    corruption fell short of targets established by the mission. These results were not
    achieved because the government did not specifically commit itself to achieving the
    targets and because no other entity was assigned specific responsibility for influencing
    the government in the direction of increasing the number of prosecutions. In addition,
    the Dominican Republic lacks a “whistleblower protection” law, a case-tracking system
    installed with USAID financing has not been put into use, and two government entities
    did not play the leadership roles envisioned for them. Finally, it is possible that the
    mission’s strategy was too optimistic about the degree of change that could be
    expected during the strategy period. As a result of not meeting targets for sanctioning
    corruption—and of not meeting other performance targets discussed later in this
    report—the program has not achieved its overall objective of increasing the
    transparency of public administration.


2
     It is not completely clear what happened here. During the audit, no one in the mission could
     explain why these performance indicators were omitted from the PMP. The mission
     subsequently took the position that it decided to remove the indicators from the PMP because
     it decided that the political will required to implement the pilot programs was not present.
     However, the indicators were not included in the PMP as far back as April 2005, while the
     mission strategy that originally included the pilot projects was dated just 1 month earlier (March
     2005). It is hard to understand how the mission’s judgments about the pilot programs and the
     level of political will could change so quickly.


                                                                                                    11
As indicated in table 1 on page 8, neither the number of officials prosecuted nor the
number of corruption cases processed through the justice system shows a clear
increasing trend. In both FY 2006 and FY 2007, the results achieved fell short of
established targets in important respects. In FY 2006, the targets for trials and judgments
were met, but the targets for cases received, arraignments, and officials prosecuted were
not. In FY 2007, the targets for cases received and judgments were met, but the targets
for arraignments, trials, and officials prosecuted were not.

Actual results fell short of established targets in these areas for several reasons:

•   Although the mission established targets for processing corruption cases and
    prosecuting corrupt officials, it did not obtain a clear commitment from the
    government to meet these targets. One of the mission’s partners, a civil society
    organization, was asked to report on these indicators, but its role was limited to
    monitoring the government’s performance. The partner did not engage in any
    advocacy activities that were specifically designed to influence the government to
    process more corruption cases or move them through the court system faster.

•   The Dominican Republic does not have a “whistleblower protection” law that would
    make it clearly illegal to take reprisals against individuals who submit corruption
    complaints. According to a press report, such a bill has been approved in the lower
    chamber of the National Congress. It is reasonable to believe that the absence of
    formal legal protection for complainants inhibits complaints to some degree, and that
    fewer complaints mean that fewer cases against corrupt officials can be developed.

•   With USAID financing, Casals adapted a case-tracking system to track corruption
    cases and installed it in the Department for the Prevention of Administrative
    Corruption, but the government has not begun using the tracking system. In addition,
    the relationship between the tracking system and number of corruption cases
    processed is very indirect. This system should make it easier for the government to
    track corruption cases through the court system and should make more accurate
    information available to the mission, but placing the system in use, by itself, is unlikely
    to increase the number of cases or officials prosecuted.

•   There is little evidence that increased public awareness of the issue of corruption has
    led to greater political will to address the issue, as the mission’s strategy anticipated
    it would, and in particular there is no unambiguous evidence of an increase in activity
    directed at prosecuting individuals who engage in corrupt behavior. One possible
    reason for the situation is that the strategy was overly optimistic about prospects for
    significant change during the relatively short 3 ½-year period from March 2005, when
    the amended strategy was completed, through September 2008, when the strategy
    period ended. Institutional change typically takes place slowly, and 3 ½ years may
    not be enough time to achieve significant institutional change. It must be noted that
    the May 2008 presidential election fell within the strategy period, presenting a
    significant distraction and introducing some uncertainty about the future course of
    government policies.

•   The National Ethics Commission and the Department for the Prevention of
    Administrative Corruption did not play the leadership roles they were expected to
    play in promoting and coordinating anticorruption efforts within the government.



                                                                                            12
The failure to unambiguously increase the number of corruption cases and officials
prosecuted for corruption contributed to failure to achieve the overall program
objective—increasing the transparency of public administration.

The following recommendations address the reasons that contributed to planned results
not being achieved. The first recommendation deals with a project planning and
management issue—namely, the need to get buy-in from partners that have key roles to
play in achieving results. Where there is no buy-in, or where no partner has accepted
responsibility for achieving a specific result, there is a high risk that the result will not be
achieved. The mission might seek concurrence from its partners either formally or
informally, but there should be no ambiguity over what the new strategy is designed to
accomplish or who is responsible for accomplishing each planned result. The second
recommendation attempts to protect USAID’s investment in the corruption case-tracking
system. USAID/Dominican Republic does not have the contractual or legal means to
ensure that the system is used, but it is important for the mission to use its influence with
the Government of the Dominican Republic to ensure that the USAID funds used to
develop and install the corruption case-tracking system are not wasted.

      Recommendation No. 1: We recommend that USAID/Dominican Republic, under
      its new anticorruption strategy, assign responsibility for meeting program
      performance targets to specific entities or partners where appropriate and obtain
      their concurrence that the performance targets are achievable within the strategy
      period.

      Recommendation No. 2: We recommend that USAID/Dominican Republic follow
      up to ensure that the corruption case tracking system has been put into use.

Progress in Passing and
Implementing Anticorruption
Legislation Fell Short of Expectations
    Summary: Progress toward passage and implementation of 4 of 11 anticorruption
    laws outlined in the PMP has been slower than planned. The Government of the
    Dominican Republic did not commit itself to the timetable outlined in the PMP, and
    none of USAID’s partners was given specific responsibility for achieving the
    established performance targets. Because these measures were not passed and
    implemented (together with the effect of not meeting other performance targets), the
    anticorruption program has not achieved its overall objective of improving the
    transparency of public administration.

The PMP includes a “policy matrix” with 11 anticorruption measures and targets for
passage and implementation of each. The Government of the Dominican Republic has
met the established targets for progress on most of the measures, but progress toward
passing and implementing the following legislation has been slower than expected:

•     Asset declaration by public officials (bill expired in the National Congress)

•     Appointment of a national ombudsman (enacted law published, but implementing
      regulations not prepared)


                                                                                             13
•     Access to public information (implementing regulations not prepared)

•     Whistleblower protection (bill drafted but not approved in first chamber as expected) 3

•     Establishment of an independent department for prevention of corruption (bill
      expired)

Progress on these measures fell short of expectations for several reasons:

•     The Government of the Dominican Republic did not concur that the targets were
      achievable and did not commit itself to meeting them.

•     Although USAID-supported civil society organizations engaged in advocacy activities
      to promote anticorruption measures, and even helped draft some measures, none of
      USAID’s partners had specific responsibility for achieving the targets.

•     Anticorruption measures may upset delicate balances of power that have evolved
      over long periods, and they can be destabilizing when they challenge powerful
      interests. It can take time to find advocates for anticorruption measures who have
      the necessary political capital and are willing to expend it, and it is not easy to
      assemble coalitions with the necessary political will to pass these measures. As an
      example, according to FINJUS officials, the whistleblower protection law has been
      pending in the National Congress for 7 years awaiting action.

The effect of not passing and implementing these measures, in conjunction with other
unmet performance targets, is that the anticorruption program has not been able to
achieve its overall objective of improving the transparency of public administration.

This audit does not make a recommendation on this subject because the mission’s
current anticorruption program has ended. Recommendation no. 1 is intended to ensure
that similar issues do not recur under the follow-on program.

Targets for Numbers of Citizens
Trained Were Only Partially Achieved
    Summary: Training targets under the anticorruption program were only partially
    achieved, and the mission and its partners did not follow up with training participants
    to see if training was applied on the job and if anticipated benefits were achieved. The
    mission did not agree with its partners on the numbers of people to be trained or on
    procedures for evaluating the effectiveness of training. As a result, training targets
    were not met, and the mission and its partners could not reasonably ensure that
    training was having the intended impact.



3
     The bill was not approved in the first chamber by the end of FY 2007 as expected in the PMP,
     but, according to a newspaper account, reporting by a USAID partner, and a report on the bill
     published by the Congress, the bill was approved by the House of Deputies within the
     Congress in 2008.


                                                                                               14
As detailed in table 3, USAID/Dominican Republic’s PMP anticipated that 12,580 citizens
would be trained under the anticorruption program in FY 2006 and FY 2007. However,
only 5,763 citizens were actually trained.

In addition, procedures and practices for evaluating training effectiveness could be
strengthened. Training transfers new skills, knowledge, and attitudes to improve the
performance of individuals and the organizations in which they work. Whether training
actually improves performance is a question that can be answered through training
evaluation. Best practices for training evaluation suggest taking a two-stage approach.
First, participant learning during the training program should be assessed using pre- and
post-tests, participant evaluations during or upon completion of training, or some other
means. Second, at least for longer term training where the level of resources invested in
each participant is more significant, the mission and its partners should assess how
participants apply training on the job and whether anticipated benefits have actually
been realized. This can be done through followup interviews, visits to participants on the
job, or requests for participant feedback at intervals after completion of training.

One of the partners did obtain participant evaluations at the conclusion of longer term
training, but none of the partners obtained participant evaluations for shorter term
training, and none followed up with longer term training participants (e.g., participants in
the investigative journalism diploma program) to see if participants could apply the
training at work or to identify obstacles that prevented them from doing so.

These issues occurred because USAID/Dominican Republic did not allocate training
targets to individual partners or agree with them on procedures for following up on
training. The mission did agree on a training target for the third partner (albeit only for
FY 2007), but the target was unrealistically low: The partner actually trained 2,610
people, well over the FY 2007 target of 300 people. As a result, training targets were not
met, and the mission and its partners could not be sure that training was having the
intended impact. Thus, the purpose of training under the anticorruption program—to
enable citizens to monitor government performance, and assist in the implementation of
the freedom of information law—was only partially achieved.

This audit does not make a recommendation regarding the need to allocate overall
program targets to individual partners; recommendation no. 1 should address this
concern. However, the following recommendation is intended to help ensure that
expected benefits from training are realized under the new anticorruption strategy.

   Recommendation No. 3: We recommend that USAID/Dominican Republic, in its
   new strategy, reach agreement with partners on procedures for systematically
   evaluating the effectiveness of training provided.

Pilot Project Recommendations
Need to Be Implemented
 Summary: The anticorruption program aimed to prevent, detect, and sanction
 unethical behavior by public officials in pilot institutions, but the work actually
 performed in pilot institutions was limited to identifying corruption risks and making
 recommendations to address them. Since the program did not include support for
 implementing the recommendations and assessing their effectiveness, the main



                                                                                         15
 purpose of supporting pilot projects (to test and validate promising approaches to
 solving problems) was not achieved.

The objective of subintermediate result 9.2.3 is decreased corruption in pilot institutions.
One of the ways this objective was to be achieved was by establishing mechanisms to
prevent, detect, and sanction unethical behavior by public officials in pilot institutions.
Among the activities Casals and Associates had to address, this objective was to assist
in the implementation of strategies to increase transparency and reduce administrative
corruption in two selected national government institutions. Within the two selected
institutions, Casals consultants conducted risk assessments and diagnostic studies and
developed action plans to address areas of weakness.

Following the cost-of-corruption survey, which expressed the cost of official corruption in
monetary terms based on interviews with Dominican citizens, Casals contacted a
number of government institutions to assess interest in implementing pilot projects to
reduce the corruption identified in the survey. Casals encountered very little interest,
although the passport directorate and the customs directorate were willing to participate.
Therefore, Casals began working with these institutions, analyzing one pilot process in
each institution: the process of issuing a new passport in the passport directorate and
the customs dispatch process in two ports (Punta Caucedo and Haina). The work in
each institution included conducting risk diagnostics and developing corruption risk
management plans, but the project did not include plans to implement the corruption risk
management plans, and in fact they have not been implemented.

By not including implementation in the scope of the pilot projects, USAID/Dominican
Republic and its contractor missed out on the main purpose of supporting pilot projects:
the opportunity to try out approaches, refine them, and then implement them in other
institutions.

These projects are very important for the program objectives since they can demonstrate
concrete action in response to the results of the cost-of-corruption survey. Without
implementation of the recommendations, the pilot projects would have no positive effects
and would represent a wasteful use of USAID funds.

The following recommendation recognizes that USAID cannot compel agencies of a
sovereign government to implement any particular recommendation or reform.
Nonetheless, USAID supported these pilot projects with the expectation that the
recommendations would be implemented to the degree that it was practical and possible
to do so. Therefore, it seems reasonable that USAID should exercise its influence with
the Government of the Dominican Republic to see that the recommendations made to
both the customs and passport directorates are implemented.

   Recommendation No. 4: We recommend that USAID/Dominican Republic
   exercise its influence with the Government of the Dominican Republic to ensure
   that the pilot institutions implement the recommended anticorruption measures
   that were developed through the pilot projects.




                                                                                         16
Small Grants Program Was
Less Successful Than Expected
 Summary: The contract with Casals and Associates included funding for 20 small
 grants of up to $5,000 each for civil society organizations in FY 2007. However, only six
 small grants were made, mainly because the targeted civil society organizations could
 not meet the requirements for the grants. As a result, opportunities to broaden
 participation in the anticorruption program and strengthen smaller civil society
 organizations were forgone.

Casals’ approved work plan has four program components, one of which is citizen
oversight. This component was to promote and support civil society organizations and
coalitions in demanding transparency in the public sector. Through a small grants fund,
the program was to finance the development of projects involving social auditing,
participatory budgeting, and other initiatives that increase citizen involvement in
monitoring government operations. Casals expected to award 20 grants, for a maximum
of $5,000 each, during FY 2007.

However, the small grants program awarded only six small grants during 2007 because
the requirements were too onerous for many prospective applicants to meet. Proposals
had to include acceptable objectives, planned results, indicators, and budgets. Most of
the targeted civil society organizations could not meet these requirements. Out of 191
civil society organizations that initially expressed interest in the grants, only 42
applications were received, and most were of unacceptable quality.

Casals undertook many activities to encourage applications and orient prospective
applicants to the requirements, including sponsoring 26 workshops and meetings with
civil society organizations throughout the country and inviting a second round of
applications after the number of applications received in the first round proved
disappointing. Also, while Casals recommended three awards from the second round of
proposals in May 2007, it was uncertain at that time whether USAID would exercise its
option to extend Casals’ contract beyond September 2007, and Casals decided that not
enough time was available to completely implement the additional grants before
September.

As a result of the low number of small grants awarded, opportunities to broaden
participation in the project and strengthen smaller civil society organizations were lost.
This audit does not make a formal recommendation because the program will end in
November 2008 and the funds that were to be used for small grants are expected to be
fully used for other purposes. However, similar programs in the future might consider
whether the application requirements are reasonably attainable by the target population
of civil society organizations and are reasonable in light of the grant amounts.

Performance Planning and
Reporting Needs to Be Improved
 Summary: USAID’s procedures for “managing for results” emphasize the need to
 carefully define performance indicators and accurately report actual results achieved.
 However, not enough attention has been paid to these issues for the anticorruption



                                                                                        17
    program, and much of the information reported in the performance management plan
    was inaccurate or incomplete. Mission staff relied on partners to report accurate
    information rather than taking steps to validate the information. As a result, the
    information in the performance management plan was not reliable.

USAID’s Automated Directives System (ADS) 203.3.3.4.5 states that each indicator
should include performance baselines and set performance targets that can
optimistically but realistically be achieved within the stated timeframe and with available
resources. Beyond what the ADS states, it is obviously important to the success of any
program that program performance indicators and targets be unambiguous and
consistently expressed. To permit USAID staff to manage for results and produce
credible reporting, ADS 203.3.5.1 requires performance data to be precise and reliable.
USAID TIPS Number 12 emphasizes the importance of documentation, stating that
proper documentation helps to facilitate the maintenance of quality performance
indicators and data. Such documentation should provide an opportunity for independent
checks concerning the quality of the performance measurement system. Since
information in partner progress reports, the PMP, and operational plan results report
may be used to make decisions about the success of USAID’s programs and the level of
resources needed to implement the programs, it is important to present complete and
accurate information in these documents.

In reviewing the PMP and partner reports for FYs 2006 and 2007, the audit team found
the following inconsistencies:

•     The PMP did not include a calendar of performance management tasks, did not
      provide a justification of why each performance indicator was selected, and did not
      describe the quality assessment procedures that would be used to verify reported
      information. Also, performance targets were not disaggregated by gender as
      required by ADS 203.3.3.1.a.

•     One of the six performance indicators, “number of civil society organization actions
      taken to promote anticorruption reforms,” was neither adequate (in capturing the
      phenomena it was intended to capture) nor objective (in having a clear operational
      definition independent of the person collecting the data) in accordance with TIPS
      Number 12. The indicator mixed very significant actions (e.g., an anticorruption
      march involving thousands of people and a mass media campaign) with much less
      significant actions (e.g., letters written to the government). As a result, increases or
      decreases in the number of civil society organization actions reported did not relate
      in any clear, predictable way to the level of civil society organizations’ activities.

•     USAID/Dominican Republic did not report on two standard indicators for
      anticorruption programs—“number of people affiliated with nongovernmental
      organizations receiving U.S. Government-supported anticorruption training” and
      “number of government officials receiving U.S. Government-supported anticorruption
      training”—in the operating plan results report for FY 2007.

•     The mission did not maintain an audit trail to show the source(s) of information in the
      PMP and how statistics reported by each partner were aggregated to arrive at the
      figures reported in the PMP.




                                                                                           18
•     The mission did not verify the results reported by partners in their progress reports,
      and some partners said that they did not receive any type of feedback from USAID
      on the information they reported.

•     The operating plan results report did not include any of the PMP performance
      indicators.

•     The only performance indicator for the anticorruption program included in the
      operating plan results report was “number of U.S. Government-supported
      anticorruption measures implemented.” The mission reported that 30 measures
      were implemented in FY 2007 but could not explain where this figure came from or
      what it represented.

•     The mission did not update the PMP to incorporate actual results in FY 2007. The
      mission prepared the PMP in March 2006 and September 2008. Data that are
      available after a delay of a year or more may be difficult to use.

•     Of the 11 results reported in the PMP, 1 was accurate, 6 were inaccurate (the
      reported information was not consistent with supporting documentation available
      from partners), 3 were unsupported (the mission reported information based on
      phone calls or other undocumented sources and did not have any supporting
      documentation available), and 1 was incomplete (the reported information was
      accurate but the PMP did not mention that the results were achieved by another
      donor or by USAID under a separate strategic objective). Table 4 provides more
      detailed information on these results.

Table 4. Reported and Verified Results for PMP Indicators

    Result                         Reported   Verified   Comments
    Number of anticorruption
                                                         The 12 reported arraignments
    cases sent to the judiciary,     12          0
                                                         were from the previous year.
    FY 2006
    Number of anticorruption                             Twenty-eight of the 49 reported
                                     49         21
    cases tried, FY 2006                                 trials were from the previous year.
    Number of current or                                 Information reported by the
    former officials or                                  mission was based on phone calls
    organizations indicted on        12          -       or other undocumented sources,
    corruption charges, FY                               and no supporting documentation
    2006                                                 was available.
    Number of current or                                 Information reported by the
    former officials or                                  mission was based on phone calls
    organizations indicted on        10          -       or other undocumented sources,
    corruption charges, FY                               and no supporting documentation
    2007                                                 was available.
    Progress on key laws                                 The status of four laws (the new
    designed to increase                                 budget law, sworn declaration of
    transparency, FY 2006                                property law, whistleblower
                                      -          -
                                                         protection law, and independent
                                                         department for the prevention of
                                                         corruption law) was different than



                                                                                         19
 Result                        Reported   Verified   Comments
                                                     the status reported.
 Progress on key laws                                The status of five laws (the new
 designed to increase                                budget law, treasury law, sworn
 transparency, FY 2007                               declaration of property law,
                                   -          -      whistleblower protection law, and
                                                     independent department for the
                                                     prevention of corruption law) was
                                                     different than the status reported.
 Number of civil society
 organization actions taken
                                  50         59
 to promote anticorruption
 reforms, FY 2006
 Number of civil society
 organization actions taken
                                  56         204
 to promote anticorruption
 reforms, FY 2007
 Number of citizens trained
                                2,768       2,160
 in anticorruption, FY 2006
 Number of citizens trained
                                1,156       2,995
 in anticorruption, FY 2007
 Milestone progress on
                                                     The information on progress was
 implementation of
                                                     accurate, but the PMP did not
 initiatives to prevent,
                                                     mention that the results were
 detect, and sanction              -          -
                                                     achieved by another donor or by
 corrupt activities proposed
                                                     USAID under a separate strategic
 by the National Ethics
                                                     objective.
 Commission, FY 2007

These issues occurred because mission staff relied on their implementing partners to
report results data and did not recognize the importance of independently verifying data
quality. Also, to some degree, it was not clear to mission staff who in the mission was
responsible for verifying information reported by partners. Finally, the absence of an
audit trail linking the PMP information to the sources from which it was drawn made it
difficult to recognize discrepancies between the PMP information and partner reports.

As a result, the information on actual performance reported in the PMP could not be
relied on, and the information in the operating plan results report did not give a
reasonably complete picture of program activities and their progress. To address these
issues, this audit makes the following recommendations.

   Recommendation No. 5: We recommend that USAID/Dominican Republic revise
   the performance management plan to correct the reporting issues discussed in
   this report.

   Recommendation No. 6: We recommend that USAID/Dominican Republic report
   on its performance management plan performance indicators in its next operating
   plan results report.




                                                                                      20
   Recommendation No. 7: We recommend that USAID/Dominican Republic
   implement controls to provide reasonable assurance that complete and accurate
   information is reported in the performance management plan and operating plan
   results report. This should include assigning responsibility for verifying reported
   information and providing feedback to partners on progress reports to specific
   staff members.

Have USAID’s anticorruption activities been coordinated with
those of other U.S. Government agencies and other donors?
USAID’s anticorruption activities have been coordinated with those of other U.S.
Government agencies and other donors. USAID has taken a leadership role in
convening roundtable meetings with other donors involved in anticorruption assistance,
such as the Organization of American States, the World Bank, the European Union, the
United Nations, the Inter-American Development Bank, and the Spanish Government.
Within the U.S. Embassy community, the Public Affairs Office has provided advice and
assistance for public service announcements related to the anticorruption themes and
reviewed and cleared the announcements.

USAID is a member of a law enforcement working group and is cognizant of the efforts of
U.S. law enforcement agencies to assist Dominican Republic counterparts. Other U.S.
Embassy components are consulted and kept informed of USAID’s anticorruption efforts.




                                                                                         21
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Dominican Republic generally agreed with the findings and recommendations in
the draft audit report. The mission plans to implement recommendation nos. 1, 2, 3, 4, 5,
and 7. Management decisions can be reached on these recommendations when
USAID/Dominican Republic provides target dates for implementing the recommendations.

In response to recommendation no. 6, the mission stated that it included one of the PMP
performance indicators related to the anticorruption program (the number of citizens
trained in anticorruption) in its most recent operating plan results report. This is a
positive step, but we would like to see the mission go further. The PMP performance
indicators are the ones that the mission has chosen as being most relevant for
measuring the progress and ultimate success of its anticorruption program. The results
report is the only means of reporting on progress with respect to these indicators to
important stakeholders in USAID and the State Department. Moreover, the results
report is used to answer inquiries from the Congress and Office of Management and
Budget, as well as to prepare the Congressional Budget Justification and Annual
Performance Report. For these reasons, it would be appropriate for the mission to
include reporting on all, or substantially all, of its PMP performance indicators in its next
results report.

The mission’s comments in their entirety are presented in appendix II.




                                                                                          22
                                                                                  APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards to determine if
USAID/Dominican Republic’s anticorruption activities are achieving their intended results
and if the anticorruption activities have been coordinated with other U.S. Government
agencies’ and international donors’ activities. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.

Audit fieldwork was conducted at USAID/Dominican Republic from September 2 through
September 19, 2008. The audit covered the period from October 1, 2005, through June
30, 2008. In planning and performing the audit, we assessed management controls
related to management review and review of performance measures and indicators.
Specifically, we obtained an understanding and evaluated (1) the fiscal year (FY) 2006
and FY 2007 annual reports, (2) the FY 2006 and FY 2007 operational plans, (3) the FY
2007 performance management plan (PMP), (4) the mission’s Federal Managers’
Financial Integrity Act of 1982 assessment, (5) the oversight performed by cognizant
technical officers, (6) performance measures, (7) actual performance results, and (8)
data quality assessments. We also interviewed key USAID/Dominican Republic
personnel, implementing partners, Dominican government officials, and beneficiaries.
We conducted the audit at USAID/Dominican Republic in Santo Domingo and visited
implementing partners and beneficiaries.

We reviewed the 11 democracy and governance program indicators included in the
FY 2006 and FY 2007 PMPs. The main implementers were Participación Ciudadana,
Fundación Institucionalidad y Justicia, Inc., and Casals and Associates.        DPK
Associates activities related to the anticorruption program ended in June 2006.

Methodology
To answer the audit objective, we reviewed the FY 2006 annual report and the FY 2007
operational plan and the PMPs’ planned and actual results. At USAID/Dominican
Republic, the democracy and governance program reported results for six standard
indicators in FY 2006 and five standard indicators in FY 2007, according to the PMPs.

We validated performance results and compared reported information to documented
results (progress reports, participant training lists, draft laws, etc.) for these indicators in
order to verify the mission’s determination of the project’s performance.

We reviewed applicable laws and regulations and USAID policies and procedures
pertaining to USAID/Dominican Republic’s anticorruption program, including the
following: (1) the mission’s 2007 Federal Managers Financial Integrity Act of 1982
assessment, (2) Foreign Assistance Act of 1961 section 116 (e), (3) USAID guidance



                                                                                             23
                                                                           APPENDIX I


TIPS 8 and 12, and (4) Automated Directives System chapters 200, 201, 202, 203, and
253.

We also interviewed USAID/Dominican Republic’s democracy and governance
cognizant technical officers, regional legal advisor, financial analysts, program office
officials, embassy political office members, implementing partners, and beneficiaries to
determine the progress of activities, how targets were established, and what evaluation
system was in place for training activities.

To answer the second audit objective, we interviewed officials from USAID, the State
Department, and international donors such as the Organization of American States, the
World Bank, the European Union, the United Nations, and the Spanish Embassy. We
also reviewed documentation such as working group minutes and joint work plans to
determine what kind of coordination takes place.




                                                                                     24
                                                                              APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM

To:             Timothy Cox, RIG/LAC

From:           Richard J. Goughnour, Mission Director, USAID/Dominican Republic

Date:           December 8, 2008

Subject:        Mission Review and Comments on RIG Audit Recommendations
                Regarding USAID/DR Transparency and Anticorruption Program


USAID/Dominican Republic very much appreciates the efforts undertaken by the RIG to
conduct the subject audit. It is worth noting the consummate professionalism and
amiability with which the auditors conducted their work and interacted with Mission staff
and counterpart organizations. USAID/DR views the audit as an opportunity to correct
deficiencies and improve systems so that, in the future, our programs will have
increased impact.

Following are the Mission’s reply and planned management actions in response to the
recommendations made in the audit report.

      Recommendation No. 1: We recommend that USAID/Dominican Republic, under our
      new anticorruption strategy, assign responsibility for meeting program performance
      targets to specific entities/partners where appropriate and obtain their concurrence
      that the performance targets are achievable within the strategy period.

While assigning responsibility to specific partners for meeting program performance
target has been a regular practice already, USAID/DR concurs with this decision, with
particular attention to ensuring that such actions are fully documented. USAID/DR is
currently developing the PMP for its new strategy in Democracy and Governance, and
specifically in anticorruption, which will include working with program implementers in the
design of their monitoring and evaluation plans. In those plans, specific indicators will be
developed and/or adopted by implementers to measure program performance. We
expect that our new standard operating procedures will have institutional contractors
work with beneficiary institutions to identify indicators already in use and to develop
appropriate indicators where none yet exist; provide technical assistance to beneficiary
institutions to develop procedures and mechanisms to track indicators; work with
beneficiary institutions to set targets and gain the institution’s concurrence that the
established targets are achievable; reach specific agreements with the beneficiary
institutions, to define roles for defining indicators, collecting data and setting targets.
With respect to civil society implementers, USAID will encourage partners to attempt to
use government indicators and targets, where such data exists, and/or to establish
indicators and targets in coordination with appropriate government institutions.

      Recommendation No. 2: We recommend that USAID/Dominican Republic follow up
      to ensure that the corruption case tracking system has been put into use.


                                                                                         25
                                                                            APPENDIX II



Although USAID/DR does not believe that the leverage exists to ensure the
implementation of this recommendation, since we no longer have a specific contracting
mechanism to provide direct technical assistance to implement the system to receive
complaints and then track what happens to them, we will work with the Public Ministry to
encourage them to implement the complaint system fully. USAID has met with the
Attorney General to request a letter of commitment to implement the corruption
complaint and tracking system fully.

   Recommendation No. 3: We recommend that USAID/Dominican Republic, in its new
   strategy, reach agreement with partners on procedures for systematically evaluating
   the effectiveness of training provided.

USAID/DR agrees with this recommendation. USAID/DR has been working with all DG
implementing partners to improve the measurement of impact of training programs.
When finalized, USAID will help develop indicator sheets for anticorruption implementing
partner that will define their plans to track impact of training programs over the medium
term.

   Recommendation No. 4: We recommend that USAID/Dominican Republic exercise
   its influence with the Government of the Dominican Republic to ensure that the pilot
   institutions implement the recommended anticorruption measures that were
   developed through the pilot projects.

USAID/DR partially agrees with this recommendation. To the degree possible, given the
design of the follow-on strategy, which focuses on DR-CAFTA related institutions,
USAID/DR will work to implement fully the recommendations that came out of the
diagnostic and expand the methodology to other institutions. However, this will mean
primarily working with Customs, since the Passport Agency does not fall within the
purview of the Mission’s follow-on strategy. USAID will meet with the Director of the
Passport Agency to request a written commitment to implement the recommended
anticorruption measures.

   Recommendation No. 5: We recommend that USAID/Dominican Republic revise the
   performance management plan to correct the reporting issues discussed in this
   report.

USAID/DR agrees with this recommendation. USAID/DR will review the PMP to ensure
that all anticorruption indicators are up-to-date and will work with implementing partners
to correct inconsistencies and incomplete information. USAID notes that it will not be
possible to make all corrections as the opportunity to collect some of the needed
information has passed.

   Recommendation No. 6: We recommend that USAID/Dominican Republic report on
   its performance management plan performance indicators in its next operating plan
   results report.

USAID/DR has already submitted the FY2009 PPR that includes the following two
performance indicators:

1. Number of prosecutors and public defense attorneys in the civil service career


                                                                                       26
                                                                          APPENDIX II


2. Number of citizens trained in anti-corruption.

   Recommendation No. 7: We recommend that USAID/Dominican Republic implement
   controls to provide reasonable assurance that complete and accurate information is
   reported in the performance management plan and operating plan results report.
   This should include assigning responsibility for verifying reported information and
   providing feedback to partners on progress reports to specific staff members.

USAID/DR agrees with this recommendation. USAID/DR will review its overall process
for designing, tracking, and verifying indicator information. Procedures will be
established to formalize responsibilities and processes for collecting and verifying
indicator information. This will include establishing formal opportunities to provide
feedback to implementing partners and local counterparts, such as periodic meetings
with all partners, individual meetings with implementing organizations, and reporting to
partners of meeting minutes and/or sharing of information presented in such meetings.

USAID notes that the information summarizing USAID investment in anticorruption
activities (p. 5) is somewhat misleading because a number of the assistance
mechanisms active during the period under review were not limited to anticorruption
programming and funded activities in different program areas. We therefore respectfully
recommend that the audit report revise and replace overall values of cooperative
agreements and contracts with the specific amount obligated to each cooperative
agreement or contract for anticorruption activities, to wit:
                                                                          Budget for
    Partner               Document No.                 Total Budget    Anticorruption
    DPK                   517-C-00-03-00116             9,570,748.00     2,896,300.00
    Part. Ciudadana       517-A-00-03-00105             6,530,303.00     1,268,889.00
    FINJUS                517-A-00-05-00108             1,632,134.00       194,410.00
    Casals & Assoc.       517-DFD-I-00-03-00139 2,918,787.00             2,918,787.00

Once again, USAID/DR would like to express its appreciation for the effort made by the
RIG auditors and for the clear observations made regarding the program. The Mission
will work assiduously to respond to the findings in the report and to close the
recommendations as soon as possible.




                                                                                     27
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
